    D EV EL OPMENT




                                                                                   March 16, 1999

       MEMORANDUM FOR M/FM,                        Smokovich

       FROM:
C




       SUBJECT:           Audit                       Cashiering Operations,
                          Audit Report No. 0-000-99-004-F

       This is our report on the subject audit. In preparing this report, we considered your
       comments on our draft audit report and have included these comments as Appendix II.

       Overall, you agreed with-our two audit recommendations, stating that the audit report has
       prompted you to look again at the need to maintain a full cashier operation at
       Washington. However, we cannot fully accept your management decision to
       Recommendation No. 1 until you have established a plan of action to resolve the issues
       identified with this recommendation. Regarding your response to audit Recommendation
       No. 2, we accept your management decision to essentially close the USAID/Washington
       cashier operations.

       Please advise this office of your management decision on Audit Recommendation No. 1
       within 30 days of the date of this report. Please submit any further information
       concerning final management action on Audit Recommendation No. 2 to               for
       their consideration.

       I appreciate the courtesies and cooperation extended to my staff during this audit.



       Background
       USAID/Washington conducts its cashiering operations from an enclosed area within the
       Bureau                    Office of Financial Management (M/FM) located within the
       Ronald Reagan Building. Cashier operations are handled by a designated cashier and
       supervised by the Chief of the Cash Management Payment (CMP) Division of M/FM.
    The cashier’s duties principally consist      1) maintaining an       fund in the amount of
    $2,500; (2) making cash disbursements against properly authorized documents; (3) issuing
    traveler’s checks; (4) accepting refunds and payments on behalf of          employees,
    contractors and grantees; and (5) depositing the funds collected into             bank
    account.

                          cashiering operations are subject to the policies, procedures, and
    authorities provided in; (1) the Manual of Procedures and Instructions for Cashiers, dated
    June 1993 (a supplement to the Treasury Financial Manual, Part 4, Chapter 3000) and (2)
    the          Handbook 19, Appendix        Cash Management, and Chapter 13,
    Fund Cashiers.

    In our prior reviews of cash operations in CMP, in January 1995 and January 1997,’ we
    identified recurring problems related to internal control and operational weaknesses. The
    reported control weaknesses impacting the operations of the cash           fund included
    the following:

            excessive         fund balance,
            cash count reconciliation differences,
            cash advances more than Treasury regulations,
            commingling of cashier and sub-cashier funds,
            no segregation of duties between the cashier and the supervisor who both have
            access to cash,
            no written policies governing the        fund,
            disorganized records, and
            failing to make unannounced verifications of cash balances as required by
            Treasury regulations.



    Results of Audit
    The Office of Inspector General audited USAID/Washington’s cashiering operations to
    answer the following objective:

    Was the Cashier Operation in                                            performed in accordance with
           and U.S. Treasury requirements?

    The cashier operation in USAID/Washington was generally being performed in
    accordance with          and U.S. Treasury requirements. However, two major
    weaknesses were found: 1) records for checks received within USAID/Washington were



                   OIG Survey on Internal Control Weaknesses Observed in the Administration of
    Fund.




-


                            --
inadequate and these checks were not being deposited on time and, 2) periodic cash
counts were not performed as required. Appendix I contains a discussion of the scope
and methodology for the audit.

                         manager of cashier operations,                took corrective action
to address most of the internal control weaknesses noted in our prior reviews of the
cashier operations, as highlighted in the Background above. Specifically, this audit
determined that the           fund is now maintained at $2,500, whereas it was previously
fully funded at the authorized amount of $70,000. According to the division chief, the
amount authorized is being maintained at $70,000 in case of national emergency, but the
working level is being kept at $2,500. Our surprise cash count did not disclose any
reconciliation differences or instances of cash advances exceeding working level. Since the
sub-cashier position was eliminated, there was no longer any possibility of the cashier and
sub-cashier commingling funds. Finally, CMP has properly segregated the duties of the
cashier and supervisor so that both individuals do not have access to both the cash on hand
and bank records.

However, as discussed in the following sections, CMP does not maintain organized
records regarding checks received nor does it have controls to ensure proper disposition
of these checks. Also, CMP has not made sure that unannounced verifications of cash
balances are done, as required by        policies and procedures and U.S. Treasury
requirements.


          Inadequate Controls Over Deposits

                     cashier does not have internal controls which ensure that checks
received are deposited on a timely basis and are processed in accordance with
and U.S. Treasury requirements. CMP does not require a register or log be maintained
showing when checks are received, including who in CMP received the check, the check
amount, source, purpose and when it was deposited into            s bank account. The
current unwritten policy by the Chief of CMP requires that all checks received are to be
only photocopied and date stamped prior to submission to the cashier. However, we
found that many checks received by CMP were not processed in accordance with the
unwritten policy.

         Handbook     procedures for frequency of deposits, as stated below, requires that
all checks in amounts over $1,000 are to be deposited within 24 hours of receipt:

          Frequency of Deposits - The             of deposits will be determined by the
          daily dollar volume         received by a depositing          The basic
          requirements governing                of deposits are:      .


                               Handbook 19, Appendix B- Cash                    Section        Procedures for Frequency of
Deposits is based on the Treasury Fiscal Requirements Manual, Volume I, Part 6, Chapter 8000.   According to
Automated Directive System, the requirements of the       Handbook for Financial Management, Cash Management are still in
                      Receipts of $1,000    more will be deposited on a daily basis: and
                      Receipts of less than I, 000 may, at the discretion of the        be
                                    and deposited when the total reaches         however,
                      deposits will be made no                 than weekly regardless of
                      the amount accumulated. [Italics added.]

We tested the timeliness of check deposits in compliance with          policies and
procedures and U.S. Treasury regulations. Testing included a review of: (a) 57 checks for
which the amount was over $1,000 and were received by CMP during the period of May
- 1998 through October 20, 1998 and, (b) 97 Internal Revenue Service (IRS) tax refund
checks for foreign students administered under the Participant Training Program.”

During the period of May 26, 1998 through October 20, 1998, CMP gathered in a folder
57 photocopied checks. Each of these checks was for an amount in excess of $1,000.
(See Appendices III and IV.) The total value of these 57 checks was about $1.9 million.
The records showed that these checks, and any related transmittal letters, were
photocopied. The photocopies were then date stamped to show the date of receipt in
CMP and were placed unbound in a folder. Based on the contents of this folder and
discussions with CMP personnel, we determined that very few of these checks -only
 were deposited within 24 hours of receipt, as required.

For 29 of these 57 checks (total value of about $1.5 million), we found that only four
checks were deposited within the 24 hour criteria. The span of time these 29 checks were
held ranged from 1 to 29 days and the average number of days held was eight.

For the remaining 28 checks received during this period (valued at about              we
were unable to determine the date of deposit for 24 checks and the date of receipt of four
checks. (See Appendix IV) Thus, we could not determine the average number of days
for which these other 28 checks remained undeposited. Although we requested CMP to
provide the complete information on these 28 checks, it was able to provide evidence of
the deposit for only four of these 28 checks.

The following case demonstrates the lack of control over accepting check payments and
timely deposits. A grantee’s check in the amount of $61,422, dated October 17, 1997
was not received in the cashier’s office until October 8, 1998 because the grantee
apparently sent the check to another office within                        This check was
deposited on October 19, 1998, over a year after it was prepared. Further,         deposit
did not take place until 11 days after it was received in CMP. We found this check in the
cashier’s office during the surprise cash count, and asked when it would be deposited. We
suggested that it be deposited immediately, because normally banks will not accept
checks over one year old. Without our timely intervention, however, it is likely that this

                       The Participant Training Program receives general supervision from the Global Bureau’s Office of Human
Capacity and Development, Office of Higher Education and Training Systems                                          has been ensuring
that foreign students in the participant training program were filing the IRS income tax returns as required by law. After a contractor
providing this service went out of business,                has been submitting all recovered IRS tax refund checks to CMP.
check would have been deposited much later and possibly not accepted for deposit by the
bank. We also noted that CMP did not initiate any follow-up action to determine why a
check dated in October 1997 was received almost a year later.

Besides not depositing the checks valued at more than $1,000 in a timely manner, as
discussed above, we found more problems with undeposited checks being held by the
cashier. CMP had not deposited another bundle of 97 checks received from the Internal
Revenue Service valued at           located in the cashier’s office. These checks were
received from the Global Bureau’s Office of Human Capacity Development, Office of
Higher Education and Training Systems                       and ranged in value from $2.26 to
$362.00. They were received by CMP from July 28, 1998 to November              1998. These 97
checks are for tax refunds received by                  from the IRS for those foreign
students of            Participant Training Program. According to CMP officials, U.S.
Treasury regulations require that these tax refund checks be deposited/returned to the U.S.
Treasury. As of the date of this audit report, these checks remain undeposited. Neither
CMP nor                   maintained a master listing the total universe of these tax
checks. Without a master list, CMP will never know if it has received all the refund checks
from

CMP needs to establish controls to ensure that all checks received are deposited in a
timely basis, in accordance with            policies and procedures and U.S. Treasury
requirements. These controls should include the maintenance of a register or log of when
all checks are received, including who in CMP received the check, the check amount,
source, purpose and when it was deposited. All checks received in CMP should be routed
to only one assigned or alternate person who will record the receipt of the check in the
register prior to routing to the cashier. This register should be reconciled periodically to
the detailed bank deposits. Continuing the current process of photocopying and date
stamping all checks and related transmittal letters will further document daily entries into
this register. In addition,               should prepare a detailed desk procedure to
document this requirement.

       Recommendation No. We recommend that the Office of Financial
       Management, Bureau of Management, establish controls to ensure that all
       checks received are deposited on a timely basis in accordance with Agency
       policies and procedures and U S. Treasury requirements.


       Required Unannounced Cash

       Verifications Not Performed


CMP was not conducting unannounced cash verifications to ensure the accuracy of the
cashier’s        funds or records in accordance with       policies and procedures and
U.S. Treasury requirements. Consequently, CMP does not have assurance that the $2,500
      fund is secure, that the funds are accounted for, and that the records are accurate.
CMP indicated that this function was temporarily suspended and would be restarted once
        was resettled at the Ronald Reagan Building.

          policy and U.S. Treasury requirements requires different verifications at different
intervals for good internal controls over cash. We found that CMP has conducted only two
unannounced cash verifications during the last year, which occurred during September and
Februarv 1998.

The          Handbook                Management; Chapter 1              Fund Cashiers,
 3H.2 requires that                 cash verifications will be performed by          at
intervals not less frequent than once a quarter. [Italics added.]

The            Cashier            dated December 1994, makes an exception to this
guidance and further requires CMP to conduct “Unannounced                of the cash
balance in all               shall made at least monthly, including
held by subcashiers. [Italics added.]

          Recommendation No. 2:         We recommend that the           of Financial
          Management, Bureau of Management, conduct unannounced cash
          verifications as required by Agency policies and procedures and U.S. Treasury
          requirements.



Management Comments and Our Evaluation
Overall, M/FM stated that it agreed with the audit recommendations. It also stated that
the audit report had had prompted them to look again at the need to maintain a full
cashier operation at        Washington.

Concerning Recommendation No. 1, M/FM stated that it is exploring other alternatives
for receiving check payments that will make the maintenance of a check register
unnecessary. These alternatives include the use of a lock box, expanded use of wire
transfers receipts or some combination thereof to eliminate or significantly reduce the
number of checks received. Regarding participant training refund checks, M/FM stated




                              Handbook        Chapter 13- Imprest Fund Cashier is based on the U.S. Treasury regulations
prescribed in the Manual of Procedures and Instructions for Cashiers Operating Under Executive Order No. 6166 (Treasury Cashier
Manual) and in the Treasury Fiscal Requirements Manual (TFRM), volume one, part four, chapter 3000. M/FM/s
Cashier Manual, dated December 1994, references Chapter 13 as still being enforced.
                      According to M/FM‘s               Cashier Manual, dated December 1994,               Cashier operations are
administered in accordance with the policies, procedures and authorities of the; 1) Manual of Procedures and Instructions for
Cashiers (a supplement to the Treasury Financial Manual, dated June           and 2)        Handbook 19, Chapter 13
Fund Cashier).
that FM would now return all tax refund checks to the IRS within 48 hours of receipt.
M/FM stated that as part of their monthly surprise cash counts they would verify that
check receipts are deposited in accordance with their established procedure.

Concerning Recommendation No. 2, M/FM stated that effective January 7, 1999, all cash
held by the cashier will be deposited in             bank account, except for the $300
held in the Administrator’s office. M/FM will initiate a same day transfer from it’s bank
account if at any time cash is required. Although the cashier should not be holding any
cash, M/FM stated that surprise cash counts would be conducted at least monthly
including cash in the Administrator’s office. The team conducting the cash count will
issue a report each month. These proposed changes along with the recent transfer of the
            cash advance function the            Travel Agent will eliminate the need for
a full time cashier.

While M/FM agrees with the thrust of Recommendation No. it has not established a
plan           to resolve the issues. As an interim step, it must create a register or log for
control over these items, during the period it is looking into alternatives for processing
receipts or amounts due            We agree that better alternatives can be found and
procedures will need to be developed. We also believe that M/FM needs to establish
target dates for completing the study of alternatives and establishing these new
procedures. Therefore, M/FM should provide us with its plan of action and a copy of the
receipt register within 30 days of this report. Further, M/FM should report its final
management actions to

Since M/FM agreed with Recommendation No. 2, we believe that the management
decision is essentially to close the USAID/Washington cashier operations. This action
responds to our concerns. Also, the plan to conduct monthly cash verifications responds
to our other concerns. Thus, we accept the management decision on this
recommendation.
                                                                                       Appendix I




                                     SCOPE AND

                                   METHODOLOGY





As part of the Government Management and Reform Act and Chief Financial Officer’s Act, we
reviewed the cashiering operations at                       in accordance with government
auditing standards. Our audit began as a surprise cash count of                         petty cash
        fund on October 13, 1998 and as a follow-up of prior audit findings. The audit was
subsequently expanded to include a review of                          cashiering operations in
general. The fieldwork was performed at                         during October and November
1998. The total value of the petty         fund is established at $70,000, but actual cash on-hand
is maintained at $2,500. Of the total $2,500 amount, $2,200 is maintained by the cashier within
the              cash room and the another $300 is controlled by an Administrative Officer
within the Office of           Administrator.

Our audit was limited to the internal controls associated with                        cashier
operations, but did not include the internal controls of the Office of Financial Management or
other         offices. We expanded our audit scope based on potential and/or perceived
problems disclosed during our review. This expanded scope included testing the timeliness of
check deposits in compliance with            policies and procedures and U.S. Treasury
requirements. Testing included a review of:       57 checks for which the check amount was over
$1,000 that were received by CMP during May 26, 1998 through October                 and, (2) 97
IRS tax refund checks for foreign students of the Participant Training Program received from the
Global Bureau’s Office of Human Capacity and Development, Office of Higher Education and
Training Systems.

To accomplish the audit objective we; (1) reviewed the physical security of the cashier’s office,
(2) evaluated controls relating to safeguarding cash and other valuables held by the cashier, (3)
performed a surprise cash count, (4) evaluated controls relating to cash/check collections,
deposits and other daily transactions, (5) reviewed management’s cash verifications and spot
checks, and     and interviewed personnel in the Office’s of Financial Management and Human
Capacity and Development. Also, we reviewed pertinent              policies and procedures and
U. S. Treasury requirements.
                                                                    APPENDIX
                                                                      Page 1 of 2

                         COMMENTS





                                                January 27, 1999




MEMORANDUM


TO:
                          randlemire

FROM :

SUBJECT:	     Draft Report: Audit of USAID/Washington Cashiering

              Operations: Audit Report

     Thank you for the opportunity to comment on the subject
draft report.   We have reviewed the report and agree with the
recommendations.   In fact, we have been considering for some time
the actual need to continue to maintain a full cashier operation
in AID/W, but had put it on the back burner.   The draft report
has prompted us to again take a hard look at the need for the
operation.
        this regard, we have taken action recently to have the

        Travel Agent handle, the distribution of traveler's checks

to       travelers who still require an advance.   The AID/W

Cashier no longer handles travelers checks. In addition, the

cashier is almost never called upon to make cash payments.

Therefore, the only real function left for the cashier is

depositing receipts.

     In our opinion, it is not efficient: to occupy a full
position just to          the relative small        of checks/cash

the Agency receives here at AID/W. Therefore,     have asked the

appropriate    staff to explore other alternatives for receiving

payments such as the use of a lock box, expanded use of wire

transfer receipts like we use for loan collections or maybe some

combination of alternatives which would eliminate or

significantly reduce the number of checks received in FM. These

alternatives will make the maintenance of a check receipt

register unnecessary. Of course, we will need to develop

procedures for processing collections received using the

alternatives. As soon      the staff is able to identify

appropriate alternatives, we will take the necessary action to

implement them promptly.

         The participant training tax refund checks are being

                                                            APPENDIX II
                                                              Page 2 of 2




returned to the IRS for cancellation. These checks cannot be

deposited by the Cashier since the payees are the individual

participants, i.e. the taxpayer. Any checks like these which are

received in the future will be returned to the IRS within 48

hours of receipt in
     As regards the cash counts, effective January 7, 1999 we
have deposited all cash held by the cashier, therefore, bringing
the Cashier's advance to only $300 which is the amount maintained
in the Administrator's office. If at any time cash is required,
       will initiate a same day transfer to the Cashier's account
at Nations Bank. While there should not be any cash held by the
cashier, I have instructed the responsible staff to make sure
that the surprise cash counts are conducted at least monthly,
including the funds held in the Administrator's office. These
cash counts will also include a verification that deposits are
being made in accordance with established procedure. The team
conducting the cash count will issue a report each month.
     Please let me know if you need any further clarification.

                                                                                                   Appendix
                                                                                                   Page 1 of 2
                                 .                          .           .   .          .
                                      of                        l~ton               aom

                                                          .

                                     of Checks Received Over $1.000)                   M/CMp
                                                .
                                                   of       to

                                                                                                    Days Deposited
    Sample                                          Check                       Date       Deposit After Check was
                 C h e c k
-                                                                                                   (Note 1 below)
             1       500145    Reimbursed                           $                      1              2
                               Contract Funds
                         759   Employee Travel      1                                                      2
                               Refund
                        3701   Employee Travel      1 O/l                                  1 O/l          23
                               Refund
                     500118    Reimbursed           1 O/l           $                      1 O/l          10
                               Contract Funds
                       10407   Reimbursed                   7198                           1              17
                               Contract Funds
                        1290   Employee Travel                                                 1          8
                               Refund
             7         2521    Reimbursed                           $                          1          12
                               Contract Funds
             8          1838   Team Technologies                                           1              29

             9         2590    Employee Travel                                                             1
                               Refund
         10            2514    Reimbursed                           $                                     0
                               Contract Funds
         11             7803   Employee Travel                                                            0
                               Refund
         12           29298    Refund of Interest       8127198                                           15

         13        USC-1 086   Reimbursed                   4198    $                                     5
                               Contract Funds
         14        USC-l 072   Reimbursed                                                                 4
                               Contract Funds
         15        USC-1 088   Reimbursed                                                                 4
                               Contract Funds
         16          500142    Reimbursed                                                                 5
                               Contract Funds
         17            4183                                         $                                     5

         18             3112   Reimbursed                                                                 11
                               Contract Funds
         19         11408820   Return of Award                                  8/l l/98                  12
                               Money
        20                     Reimbursement                        $                                    21
                                                                                            Appendix
                                                                                            Page 2 of 2

                                  of

                                 of Checks                 [Over         bv
                                                     of         to

                                                                                           Days Deposited
Sample                                           Check                     Date   Deposit After Check was
          C h e c k                                                      Received Date

     21            1204	   Employee Travel                                                           5
                           Refund
     22                    Refund of Interest                                                        6

     23            1003	   Refund of Interest                                                        6

     24             916	   Employee Travel                                                           3
                           Refund
     25	                   Reimbursed                                                                11
                           Contract Funds
     26          776348	                                                                             3

     27           64394    Reimbursed                                                                5
                           Contract Funds
                    252    Employee Travel                                                           1
                           Refund
     29                                                                                              2


           Subtotal Amount for 29 Checks Having Verifiable
           Check Receipt and Deposit Dates	                $


                                                                     AVERAGE DAYS CHECKS
                                                                      HELD BEYOND
                                                                       STANDARD BEFORE
                                                                           DEPOSIT

                                                                               NUMBER OF CHECKS

                                                                              EVIDENCED BY BOTH A

                                                                                   DATE STAMP

                                                                                 RECEIVED AND A

                                                                                  DEPOSIT SLIP

                                                                                                           Appendix IV
                                                                                                           Page 1 of 2



                                                                           $1.000~ bv
                                                           of      26/98 to


                                                                                                         Days Deposited
Sample                                             Check                                Date    Deposit After Check was
             C h e c k

              no     e mp reserved and/or      we of            osit
         1         A0461 14 Return Wire                                                 1
                            Transfer
         2           43668  Refund of Interest     1                                    1
         3           29994  Refund of Interest   1                                      1

         4            2536    Refund of Interest   1                                    1 O/l

         5           17470                             1                                1

         6             471   Employee Travel                                                1
                             Refund
         7          500130   Reimbursed                                                     1
                             Contract Funds
         8          500144   Reimbursed
                             Contract Funds
         9          500129   Reimbursed                                $
                             Contract Funds
     10             500137   Reimbursed
                             Contract Funds
     11              63627   Credit of Client
                             Labor
     12              51810   Refund of Interest
     13                335   Refund of Interest    8/l II98            $
     14               2731   Employee Travel
                             Refund
                    273818   Refund of Interest

     16              19783    Reimbursed
                              Contract Funds
     17              51244    Refund of Interest
     18                830    Reimbursed                               $
                              Contract Funds
     19              29395    Refund of Interest

     20              23390    Refund of Interest
     21               4140                                                                      71; 3198
                                                                                                  Appendix IV

                                                                                                  Page 2 of 2

                             .                      .         . .                  .
                                  of              hlngton Cashlerlng           permns

                                 of                              $1.000) v
                                                    of    26198 to    20/98

                                                                                                   Days Deposited
Sample                                           Check                          Date      Deposit After Check was
          C h e c k                                                           Received

     22          62015    Reimbursed                          $                             3
                          Contract Funds
     23          49480    Refund of Interest                  $
     24           1923    Reimbursed
                          Contract Funds
     25          28597    Refund of Interest                      2,581 .OO      3
     26          49985    Refund of Interest                  $
     27           1190    Employee Travel                     $
                          Refund
     28         500135                                        $                  ?

          Subtotal Amount for 28 Checks Having Neither
          Verifiable Check Receipt or Deposit Dates       $                                                      28

          Grand Total All Checks from Appendix   and IV
                                                                                           NUMBER

                                                                                     OF CHECKS WITH NO

                                                                                         DATE STAMP

                                                                                      RECEIVED AND/OR

                                                                                        EVIDENCE OF

                                                                                           DEPOSIT

